OIG Audit Report GR-90-08-001

Office of Justice Programs, San Diego Region Anti-Trafficking Task Force Grant
Awarded to the County of San Diego, California

Audit Report GR-90-08-001


January 2008
Office of the Inspector General


Executive Summary


The Office of the Inspector General, Audit Division, has completed an audit of the San Diego Region Anti-Trafficking Task Force Grant (2005-VT-BX-0001) awarded by the United States Department of Justice, Office of Justice Programs (OJP), to the County of San Diego, California.  The grant was administered by the San Diego County Sheriffs Department (Sheriffs Department).  As of December 1, 2004, the County was awarded a total of $448,134 for this grant.  The purpose of the award was to fund a regional anti-trafficking task force that would, through the collaborative efforts of law enforcement agencies and victim service providers, empower local law enforcement to better identify and interdict human trafficking.
 The objective of the audit was to determine whether cost reimbursements claimed under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant. 
 We tested the Sheriff’s Department compliance with essential grant conditions, including budget management and control, grant expenditures, grant drawdowns, program income, subgrantees, local match requirements, and reporting requirements. We found that the grantee generally complied with grant requirements. However, during our review we identified that the Sheriff’s Department maintained an accounting system and financial records that did not always separately account for grant-related expenditures and revenue. We also found that an unauthorized position was charged to the grant, and identified issues regarding the timeliness of Progress Reports submitted to OJP. In addition, the Sheriff’s Department informed us of deficiencies in its efforts to fulfill the grant objectives laid out by OJP as it relates to investigating human trafficking cases as well as identifying and caring for victims of human trafficking. 
 We discuss these matters in the Findings and Recommendations Section of this report. We discussed the results of our audit with officials from the Sheriff’s Department and have included their comments in the report, as applicable. In addition, we requested written responses to our draft report from the Sheriff’s Department and OJP, which are included in this report as appendices II and III, respectively. Our audit objective, scope, and methodology appear in Appendix I of this report. 







Return to OIG Home Page